                                        National Science Foundation
                                           4201 Wilson Boulevard
                                          Arlington, Virginia 22230


Office of Inspector General




MEMORANDUM

DATE:              September 28, 2012

TO:                Jeff Lupis, Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Dr. Brett M. Baker /s/
                   Assistant Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. OIG-12-1-008, Audit of National Ecological
         Observatory Network, Inc’s Proposed NEON Construction Budget


We contracted with the Defense Contract Audit Agency (DCAA), Denver Branch Office, to
perform an audit of National Ecological Observatories Network’s (NEON) $433.7 million
proposed budget for the construction of the National Ecological Observatories Network, which
will be performed over a five-year period from August 1, 2011 through July 30, 2016. The
objective of this audit was to examine the NEON construction proposal to determine if NEON’s
proposed budget was prepared in accordance with applicable federal requirements, and is
acceptable as a basis for negotiation of a fair and reasonable price.

DCAA performed its audit of NEON in accordance with generally accepted government auditing
standards using OMB regulations as criteria. However, the auditors reported significant scope
limitations because neither NSF nor NEON provided adequate supporting documentation for
significant proposed quantities or costs. DCAA’s final audit report is attached to this memo.


Background

The NEON proposal audit started in June 2011 and on July 25, 2011, DCAA issued its first of
three inadequacy memos stating that the NEON proposal was unauditable. On July 27, 2011,
NSF entered into Cooperative Agreement EF-1029808 and a Cooperative Support Agreement
(CSA) EF-1029808 with NEON both effective August 1, 2011. The CSA initially funded the
NEON project with $12.5 million of Major Research Equipment and Facilities Construction
(MREFC) funds out of the projected total award funding of almost $434 million subject to
availability of funds. At present, through the latest award modification (Amendment 014, dated
September 17, 2012), the cumulative CSA funding is approximately $72.8 million.
                                                         NSF OIG Audit Report No. OIG-12-1-008


Significant issues supporting DCAA’s adverse opinion include the following:

•   The audit questioned the entire $72.6 million of proposed contingency costs as unallowable
    based on 2 CFR Part 230, Appendix B, Paragraph 9, Contingency Provisions, which states,
    “Contributions to a contingency reserve or any similar provision made for events the
    occurrence of which cannot be foretold with certainty as to time, intensity, or with an
    assurance of their happening are unallowable.” DCAA noted that there is uncertainty that the
    costs will be incurred. NEON calculated $57.2 million of contingencies for line items using
    values and factors from tables, and estimated an additional $15.4 million for changes in
    overall project estimate and increases in project contingency from 16 to 20 percent as
    recommended in NSF’s Final Design Review. Although NEON asserted its proposed
    contingency estimating calculations were used in a wide variety of scientific and commercial
    projects, DCAA stated that, “ NEON could not support the proposal’s contingency values
    and factors for subject project using its own historical data. Nor was other data available to
    support the proposed values and factors.” The cited OMB cost principle notwithstanding, the
    awardee is still required to provide adequate supporting documentation for all its proposed
    costs, in accordance with 2 CFR 230 Appendix A, General Principles, A(2)(g), which
    requires costs be adequately documented.
•   The audit questioned proposed escalation costs because auditors found the escalation factors
    to be unreasonable, inappropriate, or duplicate escalation costs; NEON did not appropriately
    apply the NSF-provided OMB escalation factors; or Global Insight’s producer price index
    showed deflation over the period of performance rather than inflation.
•   NEON did not provide adequate documentation to demonstrate the allowability, allocability,
    or reasonableness for significant amounts of the proposed direct labor, direct
    material/equipment, consultants, and other direct costs (ODCs).
•   NEON did not always provide adequate documentation to demonstrate price reasonableness
    of the proposed unit price for several material items.
•   NEON’s price and/or cost analyses were insufficient due to (i) reliance of historical data that
    was not current; (ii) lack of adequate documentation of the analyses; and (iii) less than
    sufficient competition by offerors.
•   Questioned and unsupported direct equipment and material costs are based on inadequate
    supporting documentation, unsupported engineering estimates, unsupported estimated
    shipping costs, quantity discounts not taken, and other exceptions.
•   NEON proposed a management fee as a line item of consultants cost to cover expressly
    unallowable costs in noncompliance with OMB cost principles.
•   Questioned travel costs included inappropriate refund application and unallowable food and
    alcohol costs.
•   Questioned unit costs for ODCs (other direct costs) and consultant costs included items that
    did not reconcile to support, such as vendor quotes.
•   NEON’s accounting practice is noncompliant because it incurred but did not remove
    unallowable indirect costs from the overhead pool and is not accounting for capital
    expenditures in accordance with OMB cost principles which state, “Equipment and other
    capital expenditures are unallowable as indirect costs.”
•   NEON's MTDC (modified total direct costs) allocation base was determined to be
    noncompliant with OMB cost principles because NEON removed unallowable costs from the



                                                 3
                                                           NSF OIG Audit Report No. OIG-12-1-008


    allocation base, which has the effect of lowering the base and increasing the rate for the
    remaining costs left in the base. Unallowable costs should also receive an appropriate share
    of indirect costs.
•   NEON did not include the proposed contingency costs in its allocation base in proposing its
        percent overhead rate or apply its overhead rate to the proposed contingency costs.
    Therefore, it appears NEON has not considered the potential accounting issues that could
    arise from these costs.
•   The fringe allocation base selected by NEON was determined to be noncompliant with OMB
    cost principles. NEON included the following two accounts in the base: Account 40101, Part
    Time and Temporary Salaries, which contained costs of visiting scientists and seasonal
    workers, and Account 40105*, Other Compensation, which contains cost for signing
    bonuses, severance costs, and other items of this nature. NEON confirmed visiting scientists
    and seasonal workers do not receive benefits.

NEON, in its response dated September 7, 2012, disagreed with DCAA’s findings, stating that
“costs were estimated and thoroughly reviewed (by NSF panels) consistent with NSF’s MREFC
procedures defined in the NSF Large Facilities Manual.” We take no exception to the factual
accuracy of NEON’s assertion. However, the significant marked contrast in results between
NSF panel reviews which took no exception to NEON’s proposed costs and the subject DCAA
audit raises serious concerns about the NSF review processes. Similar differences and awardee
assertions arose over two other NSF construction projects during the last two years. DCAA
audits, which use OMB cost principles as criteria, have repeatedly found awardees’ proposed
budgets (that were approved by NSF) lacked adequate supporting documentation. Please see our
recent alert memo to NSF for further details. 2 Our overarching goal is stewardship and
accountability of government funds.


Scope Limitations

DCAA noted significant scope limitations which prevented a complete audit of the proposal,
and, without which, additional costs might have been questioned. First, DCAA was unable to
determine the reasonableness of proposed direct labor hours or material and equipment
quantities. While NSF OIG provided DCAA with NSF’s panel reviews (Final Design Review
and Construction Readiness Review), DCAA could not rely on those reviews as technical
evaluations. DCAA stated that those reviews did not provide the detail, nor satisfy the
requirements of a technical evaluation. We asked NSF to provide a program review of NEON’s
proposed labor hours and documentation quantifying and justifying the amount of NEON’s
proposed labor hours (by category) and skill levels. NSF responded that its Design review
evaluates staff and skill levels using the NSF Large Facility Manual criteria, and that the Grants
Officer “performs a cursory check of the labor hours as it appears in the NSF budget form.” We
forwarded NSF’s responses to DCAA, but DCAA still could not rely on NSF’s processes as a
legitimate technical evaluation.

2
 NSF OIG Alert Memo, Report No. 12-6-001, NSF’s Management of Cooperative Agreements,
dated September 2012




                                                  4
                                                                    NSF OIG Audit Report No. OIG-12-1-008



Second, DCAA stated that NEON did not provide adequate support for a significant portion of
its proposed direct labor, materials, equipment, ODC (other direct costs) and consultant costs.
As stated above, this resulted in DCAA’s classifying approximately $52.3 million of proposed
direct costs as unsupported. This amount does not include the application of NEON’s proposed
22% indirect cost rate, which, if applied, would have the effect of increasing the $52 million by
as much as $11.5 million ($52.3 million x .22). However, DCAA stated that the contracting
officer should apply this rate to any unsupported base costs that are not accepted to calculate
corresponding additional questioned indirect costs.


Recommendations

In view of the adverse opinion rendered by the auditors on NEON’s construction proposal and
the almost $434 million of taxpayer dollars at risk, we recommend that the NSF Director of the
Division of Acquisition and Cooperative Support take the following actions before funding any
additional amounts for the NEON project:

1. Require NEON to submit a revised proposed budget with adequate supporting documentation
   for all proposed costs.
2. Obtain a DCAA audit of the awardee’s revised proposed budget and supporting
   documentation prior to funding and base NEON funding on the results of audit. 3
3. Require NEON to remove unallowable contingency provisions from its proposed budgets for
   NEON and discontinue NSF’s practice of funding contingencies until the awardee is able to
   demonstrate a bona fide need for the funds supported by adequate supporting documentation.

In accordance with OMB Circular A-50, please coordinate with our office during the six-month
resolution period to develop a mutually agreeable resolution of the audit findings. Also, the
findings should not be closed until NSF determines that the recommendation has been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

We are providing a copy of this memorandum to the NEON Program Director and the Director
of Large Facilities Projects. The responsibility for audit resolution rests with DACS.
Accordingly, we ask that no action be taken concerning the report’s findings without first
consulting DACS at (703) 292-8242.

OIG Oversight of Audit

To fulfill our responsibilities under generally accepted government auditing standards, the Office
of Inspector General:

    •    Reviewed DCAA’s approach and planning of the audit;

3
 DCAA stated in its report, “If NEON provides the remainder of the supporting documentation prior to re-
negotiations under the adjustment clause, we will provide a supplemental report, if such a report will serve a useful
purpose.”




                                                          5
                                                        NSF OIG Audit Report No. OIG-12-1-008


      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with DCAA and NSF officials as necessary to discuss
          audit progress, findings and recommendations;
      •   Reviewed the audit report prepared by DCAA to ensure compliance with Government
          Auditing Standards and Office of Management and Budget Circulars; and
      •   Coordinated issuance of the audit report.

DCAA is responsible for the attached audit report on NEON and the conclusions expressed in
that report.

We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact Jannifer Jenkins at (703) 292-4996 or David Willems
at (703) 292-4979.


Attachments:

DCAA Audit Report No. 3121-2012J21000001-S1, Independent Audit of National Ecological
Observatory Network, Inc.’s Proposal for Major Research Equipment and Facilities
Construction of the National Ecological Observatory Network,, dated September 30, 2012




cc:       Martha Rubenstein, CFO and Director BFA
          Mary Santonastasso, Division Director, DIAS
          Elizabeth Blood, NEON Program Director, Division of BIO
          Mark Coles, Director Large Facilities Projects
          Clifford Gabriel, Senior Advisor




                                                6
